                         United States Attorney David C. Weiss
                                  District of Delaware
   ________________________________________________________________________
   FOR IMMEDIATE RELEASE                  CONTACT: CHRISTOPHER J. BURKE
   TUESDAY, MAY 4, 2010                   PHONE: (302) 573-6277
   WWW.USDOJ.GOV/USAO/DE/                 FAX: (302) 573-6220


    FOUR DEFENDANTS PLEAD GUILTY REGARDING SCHEME TO
     OBTAIN FRAUDULENT DELAWARE IDENTIFICATION CARDS

        David C. Weiss, United States Attorney for the District of Delaware, Richard A. McFeely,
Special Agent in Charge of the Federal Bureau of Investigation’s (“FBI”) Baltimore Division and
Department of Transportation Office of Inspector General (“DOT-OIG”) Special Agent in Charge
Kathryn Jones announced today that four defendants – Beverly Rodriguez, age 45, Jose Rodriguez,
age 25, Haydee Rodriguez, age 29, and Sheila Rodriguez, age 39, all of the Wilmington area – each
pled guilty on Friday, April 30, 2010, to one count of conspiracy to produce identification documents
without lawful authority, in violation of Title 18, United States Code, Section 1028(f). This count
is punishable by a maximum term of 15 years imprisonment, three years supervised release, a
$250,000 fine, and a $100 special assessment.

        The convictions relate to a scheme in which the defendants helped others obtain fraudulent
Delaware identification cards at the Delaware Division of Motor Vehicles (“DDMV”) in 2009. The
DDMV requires that in order to obtain a Delaware driver’s license or identification card, an applicant
must provide various forms of identification documents, including two separate proofs of Delaware
residency. As part of the defendants’ scheme, Beverly Rodriguez met with individuals who did not
live in Delaware, but who wished to obtain identification cards in Delaware, including clients who
were in the country illegally. These individuals paid Beverly Rodriguez for her assistance in
obtaining a Delaware identification card. Beverly Rodriguez then paid Haydee Rodriguez and Sheila
Rodriguez to generate false residency documents that could be used in the DDMV application
process, including fake bank letters, fake insurance letters or fake letters from a State agency.
Beverly Rodriguez would then pay other individuals, including Jose Rodriguez, to take the clients
to the DDMV to obtain the fraudulent identification cards – cards that stated that the client lived at
the Delaware address contained on the fake residency paperwork, when in fact that was untrue.
Sentencing hearings in these cases have been set for Friday, July 23, 2010 at 9:30 a.m. before the
Chief Judge of the United States District Court, the Honorable Gregory M. Sleet.

        United States Attorney Weiss stated: “In today’s world, fraudulently obtained driver’s
licenses and identification cards are dangerous breeder documents that can be used by identity
thieves and others who wish to engage in criminal activity. These licenses or identification cards
are often used over and over again to open financial accounts, secure a passport, or otherwise create
a completely new and fraudulent personal and financial history. Those who engage in this process
of identification fraud should know that they are subject to federal prosecution and that the penalties
for this type of criminal activity can be significant.”

        “Working with our law enforcement and prosecutorial colleagues, the Department of
Transportation Office of Inspector General is committed to investigating and seeking prosecution
of those who choose to participate in the production of fraudulent identification cards and driver’s
licenses,” said DOT-OIG Special Agent in Charge Kathryn Jones. “In addition to the potential for
identity theft and other criminal activity, people who fraudulently obtain a driver's license,
commercial or otherwise, could pose a serious safety risk to the road traveling public.”

       These cases were investigated by the FBI and the DOT-OIG. They are being prosecuted by
Assistant United States Attorney Christopher J. Burke.

                                                 ###
